                                                             United States Attorney
                                                             District of New Jersey
FOR IMMEDIATE RELEASE                                        CONTACT: Rebekah Carmichael
November 30, 2011                                                     Office of Public Affairs
www.justice.gov/usao/nj                                               (973) 645-2888


            NEW JERSEY ASIAN RESTAURANT OWNERS SENTENCED
          FOR FAILING TO PAY TAXES, HARBORING UNLAWFUL ALIENS

        NEWARK, N.J. – Brothers-in-law and owners of Sawa Sushi Asian restaurants in Long
Branch and Eatontown, N.J., were sentenced today for their respective roles in failing to pay payroll
taxes to the IRS and harboring unlawful aliens, U.S. Attorney Paul J. Fishman announced.

        Mou Chor Tung, a/k/a “Kenny Tung,” 45, of Colts Neck, N.J., was sentenced to 20 months
in prison and Sin Ching Chang, a/k/a “Alton Chang,” 35, of Long Branch, N.J., was sentenced to 24
months probation. Both defendants previously pleaded guilty to separate Informations charging
them with one count each of failing to collect, truthfully account for, and pay over payroll taxes to
the IRS. Tung also pleaded guilty to one count of harboring unlawful aliens, whom he employed at
his Sawa Sushi restaurant in Eatontown (Sawa 1).

       Tung and Chang entered their guilty pleas before U.S. District Judge Claire C. Cecchi, who
also imposed the sentences today in Newark federal court.

        According to documents filed in this case and statements made during Tung and Chang’s
guilty plea proceedings:

        Tung was the owner and manager of Sawa 1; Chang was the owner and manager of Sawa
Sushi (Sawa 2) in Long Branch. Tung and Chang were responsible for collecting, accounting
for, and paying over to the IRS withholdings from the restaurants’ employees for Social Security,
Medicare, and income taxes – collectively referred to as “payroll taxes.” In the tax years 2007
through 2010, Tung failed to collect from Sawa 1employees and pay these taxes, in the aggregate
amount of $263,523. Chang failed to collect payroll taxes for tax year 2007 from Sawa 2’ s
employees, failing to pay over $57,048 to the IRS.

        As the owner and manager of Sawa 1, Tung was also responsible for verifying the
identity and employment eligibility of all employees hired to work at the restaurant. Tung
provided employment at Sawa 1 to individuals unlawfully present in the United States, allowing
several of them to use Social Security numbers issued to other individuals and providing
payment in the identities of the numbers’ true holders. Tung purchased two properties in Long
Branch, where he housed his unlawful alien employees, providing transportation between the
properties and Sawa 1 in vehicles belonging to the restaurant.

        In addition to the prison terms, Judge Cecchi sentenced Tung to two years of supervised
release and fined $10,000. Chang was fined $3,000.
        U.S. Attorney Fishman credited special agents of IRS – Criminal Investigation, under the
direction of Special Agent in Charge Victor W. Lessoff; U.S. Immigration and Customs
Enforcement’s (ICE) Homeland Security Investigations (HSI) in Newark under the direction of
Acting Special Agent in Charge Andrew McLees; the U.S. Department of Labor, Office of
Inspector General, under the direction of Special Agent in Charge Robert L. Panella; and the
Social Security Administration, Office of the Inspector General, New York Field Division, under
the direction of Special Agent in Charge Edward J. Ryan, with the investigation leading to the
sentences.

       The government is represented by Assistant U.S. Attorney Aaron Mendelsohn of the U.S.
Attorney’s Office Economic Crimes Unit in Newark.

11-482                                        ###

Defense counsel:

Tung: Joel Cohen Esq., New York
Chang: Scott Tulman Esq., New York




                                              -2-
